                                              EMPLOYMENT STANDARDS
                                              ADMINISTRATION

Office of Inspector General—Office of Audit




                                              AGREEMENT WITH WAL-MART INDICATES NEED
                                              FOR STRONGER GUIDANCE AND PROCEDURES
                                              REGARDING SETTLEMENT AGREEMENTS




                                                                Date Issued:   October 31, 2005
                                                                Report Number: 04-06-001-04-420
U.S. Department of Labor                           October 2005
Office of Inspector General
Office of Audit                                    Agreement with Wal-Mart Indicates Need
                                                   for Stronger Guidance and Procedures
                                                   Regarding Settlement Agreements
BRIEFLY…
Highlights of Report Number: 04-06-001-04-         WHAT OIG FOUND
420, to the Assistant Secretary for                While the Office of Inspector General (OIG)
Employment Standards.                              found that the Wal-Mart agreement did not
                                                   violate Federal laws or regulations, we did
WHY READ THE REPORT                                find serious breakdowns in WHD’s process
Wal-Mart Stores, Inc., is the world’s largest      for negotiating, developing, and approving
retailer. The Employment Standards                 such agreements. These breakdowns
Administration (ESA), Wage and Hour                resulted in the WHD entering into an
Division (WHD), investigated 27 Wal-Mart           agreement that gave significant
stores in 3 states and cited child labor           concessions to Wal-Mart. Specifically, the
hazardous occupation violations of the Fair        agreement provided for advance notification
Labor Standards Act (FLSA) of 1938, as             by WHD of Wal-Mart investigations, and
amended. As a result, WHD pursued a                gave Wal-Mart the ability to avoid civil
strategy to enter into a national, corporate-      money penalties (CMP) under certain
wide child labor compliance agreement with         conditions. In exchange, the agreement
Wal-Mart Stores, Inc. Recent congressional         primarily committed Wal-Mart to continue
interest has focused on whether certain            measures that were already in place or
provisions of the agreement signed by Wal-         required by law. Also, WHD did not consult
Mart and WHD unduly favored Wal-Mart.              with the Office of the Solicitor (SOL) in
This report discusses the results of our audit     developing and approving the agreement.
of WHD’s processes regarding settlement
agreements, including the Wal-Mart                 WHAT OIG RECOMMENDED
agreement.                                         We recommended that (1) WHD develop
                                                   and implement written procedures for
WHY OIG DID THE AUDIT                              negotiating, developing, and approving
The OIG conducted a performance audit to           agreements with employers, and (2) future
determine whether WHD had adequate                 agreements be developed in coordination
management controls in place over its              with SOL. ESA agreed with the OIG’s
process for negotiating, developing, and           recommendations, but argued that the
approving settlement agreements, including         report mischaracterized the effectiveness of
the January 11, 2005, settlement agreement         the Wal-Mart’s agreement. Based on new
with Wal-Mart.                                     policy instituted by WHD in June 2005, we
                                                   consider both recommendations to be
READ THE FULL REPORT                               resolved.
To view the report, including the scope,
methodology, and full agency response, go
to:
http://www.oig.dol.gov/public/reports/oa/2006/04
-06-001-04-420.pdf
  Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
  Settlement Agreements



  Table of Contents
EXECUTIVE SUMMARY ................................................................................................... 3
ASSISTANT INSPECTOR GENERAL’S REPORT ........................................................... 9

       1. WHD’s process for negotiating, developing and approving the Wal-Mart
          agreement and its content did not violate applicable Federal laws or
          regulations ........................................................................................................ 10

       2. WHD does not have sufficient, established policies and procedures
          to provide adequate guidelines for its employees to negotiate and develop
          agreements with employers ............................................................................ 12

       3. Lack of a formal process for developing agreements with employers
          resulted in Wal-Mart attorneys authoring key provisions of the Wal-Mart
          agreement ......................................................................................................... 14

       4. Lack of a formal process for management review and approval resulted
          in inadequate review of key provisions of the Wal-Mart agreement............ 20

       5. Lack of adequate guidelines resulted in the Wal-Mart agreement not
          receiving review from the Office of the Solicitor (SOL) ................................ 22

       6. The agreement signed between Wal-Mart and WHD was
          significantly different from other agreements entered into by WHD. ......... 25

  RECOMMENDATIONS................................................................................................. 34

  ESA'S RESPONSE TO THE DRAFT REPORT............................................................ 35

  OIG'S CONCLUSION ................................................................................................... 35

  EXHIBIT ........................................................................................................................37

       A. Wal-Mart Settlement Agreement...................................................................... 39
APPENDICES ................................................................................................................ 43
       A. Background....................................................................................................... 45
       B. Objectives, Scope, Methodology, and Criteria............................................... 49
       C. Acronyms and Abbreviations.......................................................................... 53
       D. Agency Response............................................................................................. 55




  U.S. Department of Labor—Office of Inspector General                                                                          1
  Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements




                       PAGE HAS BEEN INTENTIONALLY LEFT BLANK




 2                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements



Executive Summary
We conducted a performance audit of the Employment Standards Administration (ESA),
Wage and Hour Division's (WHD) process that led to a January 11, 2005, settlement
agreement with Wal-Mart Stores, Inc. (Wal-Mart). The settlement agreement stemmed
from allegations that Wal-Mart violated child labor provisions of the Fair Labor
Standards Act (FLSA) of 1938, as amended.

Our audit was designed to answer the following questions:

   1. Did WHD’s process for negotiating, developing, and approving the Wal-Mart
      agreement and its content comply with applicable Federal laws and regulations?

   2. Did WHD have adequate procedures for negotiating, developing, and approving
      settlement agreements?

   3. How was the Wal-Mart agreement developed, and did it comply with established
      policies and procedures?

   4. How does the content of the Wal-Mart agreement compare with other
      agreements entered into between WHD and other employers?

Results

Although we found that the Wal-Mart agreement did not violate Federal laws or
regulations, we did find serious breakdowns in WHD’s process for negotiating,
developing, and approving such agreements. These breakdowns resulted in WHD
entering into an agreement that gave significant concessions to Wal-Mart (advance
notification of future investigations and ability to avoid civil money penalties (CMP)) in
exchange for little commitment from the employer beyond what it was already doing or
required to do by law. However, nothing came to our attention indicating evidence of
influence or pressure from internal or external sources being applied in the negotiation,
development, or approval of the agreement.

Specifically, WHD did not have adequate management controls over its process for
negotiating, developing, and approving WHD settlement agreements. These
agreements generally occur when an investigation related to child labor violations or
other issues discloses pervasive problems, and a mutually binding agreement between
DOL and the company could possibly achieve increased and focused compliance with
Federal laws. The intent of such agreements is commendable, because it promulgates
DOL’s message of compliance. However, it is important to consider that WHD



U.S. Department of Labor—Office of Inspector General                                    3
Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements

settlement agreements typically result from documented violations of the law. Even
though WHD intended to obtain the company’s future compliance with the law, the
Office of Inspector General (OIG) has specific concerns with the Wal-Mart agreement
because it contained significant provisions that were principally authored by Wal-Mart
attorneys and never challenged by WHD, and because it did not receive adequate WHD
review and approval. Additionally, the Office of the Solicitor (SOL) was not consulted
on, nor requested to review or participate in, the settlement negotiations despite
extensive involvement of Wal-Mart’s attorneys, and SOL was not involved in the
development or review of the agreement.

Specifically, we found:

Objective 1

     1. WHD’s process for negotiating, developing, and approving the Wal-Mart
        agreement and its content did not violate applicable Federal laws or regulations.

Objectives 2 and 3

     2. WHD did not have sufficient, established policies and procedures to provide
        adequate guidelines for its employees to negotiate, develop, and approve
        agreements with employers.

     3. Lack of a formal process for developing agreements with employers resulted in
        Wal-Mart attorneys authoring key provisions of the Wal-Mart agreement.

     4. The provision in the Wal-Mart agreement requiring WHD to notify Wal-Mart 15
        days prior to any WHD audit or investigation is inconsistent with WHD’s Field
        Operations Handbook (FOH) guidelines.

     5. A provision of the agreement may provide for the avoidance of formal citation
        and penalty assessment if Wal-Mart brings its facility into compliance within 10
        days of a WHD formal notice of a violation.

     6. The Wal-Mart agreement required jointly developed press releases, in violation of
        stated WHD, ESA, and Department of Labor (DOL) Press Policy.

     7. Lack of a formal process for management review and approval resulted in
        inadequate review of key provisions of the Wal-Mart agreement.

     8. Lack of adequate guidelines resulted in the Wal-Mart agreement not receiving
        review by SOL.




 4                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements



Objective 4

   9. The agreement between Wal-Mart and the WHD was significantly different from
      other agreements entered into by WHD. Specifically, the Wal-Mart agreement
      had the most far-reaching restrictions on WHD's authority to conduct
      investigations and assess CMPs.

In our view, the Wal-Mart agreement may adversely impact WHD’s authority to conduct
future investigations and issue citations or penalty assessments, and potentially restricts
information to the public.

Unless WHD implements better management controls over its agreement process to
ensure strong agreements are entered into with employers in the future, the WHD
inadvertently may enter into agreements that fail to maximize accomplishment of the
goal of increased compliance with Federal labor laws.

Recommendations

We recommend that the Assistant Secretary for Employment Standards:

1. Develop and implement written procedures for negotiating, developing, and
approving agreements with employers. Specifically, the new procedures should
provide, at a minimum:

       sufficient detail to ensure that all agreements include specific required elements
       and exclude elements that are unacceptable;
       appropriate levels of approval at the District Office (DO), Regional Office
       (RO), and National Office (NO);
       guidelines that identify: the bounds within which agreements may be
       negotiated; the provisions that should be considered for inclusion; and
       those provisions that are not negotiable; and
       employer audit/monitoring provisions that describe requirements in
       sufficient detail to ensure the adequacy and completeness of employer-
       performed audits/monitoring.

2. Require all future agreements be developed in coordination with the SOL, to include
consultation, review and/or drafting of key elements, and clearance before execution, as
deemed appropriate.




U.S. Department of Labor—Office of Inspector General                                    5
Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements


Agency's Response

ESA responded it agrees with OIG’s conclusion that the process previously employed
by WHD in negotiating settlement agreements required greater control and oversight.
As a result, WHD has developed a new policy surrounding its settlement negotiation
process, which ESA believes will effectively implement all OIG recommendations.

However, ESA strongly disagrees with the report’s overall characterization of the
effectiveness of the Wal-Mart child labor settlement agreement. Further, ESA believes
that the OIG report gives the impression that: Wal-Mart was consulted before the
Department issued its press release announcing the agreement; advance notice has
been provided to Wal-Mart for WHD investigations involving matters other than child
labor situations; and Wal-Mart has been permitted to avoid all penalties for violations of
Federal law simply by bringing its stores into compliance. ESA contends that the
requirement for advance notification applies only to child labor violations, and would not
prevent them from intervening in the event of hazardous situations. In challenging our
reading of the agreement, ESA argues various points of contract law it claims control
how the document should be interpreted. ESA’s response is included in its entirety as
Appendix D.

OIG Conclusion

We considered ESA’s response in its entirety and found no additional information that
would materially affect our conclusion that breakdowns in the settlement agreement
process resulted in the WHD entering into an agreement that gave significant
concessions to Wal-Mart (advance notification of future investigations and ability to
avoid CMPs) in exchange for little commitment from the employer beyond what it was
already doing or required to do by law.

We disagree with ESA’s response that the OIG report mischaracterizes the Wal-Mart
agreement’s value or the effect of the agreement on WHD obligations and ability to
properly exercise its enforcement authority. We found in our analysis of the provisions
of the Wal-Mart agreement a significant number of provisions that either required Wal-
Mart to comply with existing law or to “continue” actions already being conducted. In
contrast to other agreements we reviewed, the WHD agreement with Wal-Mart was the
most far-reaching in precluding CMPs and limiting WHD’s ability to initiate
investigations.

We do not believe our report implies that Wal-Mart was consulted prior to the press
release. We did not find any evidence that that was the case. Also, we did not state
that Wal-Mart has avoided any penalties simply by bringing a store into compliance.




 6                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements

We did note that based on the language in the agreement, the 10-day provision was
designed to allow Wal-Mart to avoid penalties if compliance is achieved.

ESA contends that the advance notification provision applies only to child labor matters,
and would not prevent them from intervening in the case of hazardous situations. ESA
raises various contract law issues in support of its argument. We continue to maintain
that the plain language of the advance notification clause applies to any potential
violation, not just child labor violations. Further, the Regional Administrator told us in an
interview that, should she become aware of a potential child labor safety or health
violation that she considered egregious, she intended to contact the Office of the
Solicitor to see what they could do. We also note that, subsequent to the agreement,
this provision has not been applied to other types of wage and hour cases involving
Wal-Mart. However, the fact that ESA and Wal-Mart, subsequent to the written
agreement, mutually may have chosen to do otherwise does not change what is
required by the agreement. More importantly, however, inherent in our conclusion and
recommendations is that ESA should not have to rely on legal arguments to interpret
and enforce its agreements.

The report findings and recommendations remain unchanged. However, based on
policy issued by WHD in June 2005, we consider these recommendations to be
resolved but open pending OIG’s review and analysis of the guidelines to ensure all
aspects of the recommendations have been met.




U.S. Department of Labor—Office of Inspector General                                      7
Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements




                       PAGE HAS BEEN INTENTIONALLY LEFT BLANK




 8                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements

U.S. Department of Labor                       Office of Inspector General
                                               Washington, DC 20210




                         Assistant Inspector General’s Report

Ms. Victoria A. Lipnic
Assistant Secretary
 for Employment Standards
200 Constitution Avenue, N.W.
Washington, D.C. 20210


We audited the Employment Standards Administration, Wage and Hour Division’s
procedures and controls governing compliance, litigation settlement, and administrative
settlement agreements (referred to hereafter collectively as “agreements”) as those
procedures and controls were applied to a settlement agreement entered into with Wal-
Mart Stores, Inc. The January 11, 2005, settlement agreement with Wal-Mart (see
Exhibit A) stemmed from allegations that Wal-Mart violated child labor provisions of the
Fair Labor Standards Act of 1938 (FLSA), as amended. See Appendix A for additional
background information.

The primary purposes of our audit were to answer the following questions:

   1. Did WHD’s process for negotiating, developing, and approving the Wal-Mart
      agreement and its content comply with applicable Federal laws and regulations?

   2. Does WHD have adequate procedures for negotiating, developing, and
      approving settlement agreements?

   3. How was the Wal-Mart agreement developed, and did it comply with established
      policies and procedures?

   4. How does the content of the Wal-Mart agreement compare with other
      agreements entered into between WHD and other employers?

We conducted our audit in accordance with Government Auditing Standards for
performance audits. Our audit scope, methodology, and criteria are detailed in
Appendix B.




U.S. Department of Labor—Office of Inspector General                                    9
Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements

Objective 1 – Did WHD’s process for negotiating, developing and approving the Wal-
Mart agreement and its content comply with applicable Federal laws and regulations?


Results

WHD’s process for negotiating, developing and approving the Wal-Mart agreement and
its content did not violate applicable Federal laws or regulations.

One purpose of the Wal-Mart agreement is for Wal-Mart to provide, and WHD to seek,
assurances of Wal-Mart’s future compliance with the child labor provisions of the FLSA.
We reviewed the FLSA to determine if any clauses or provisions of the FLSA regulate
the process of entering into settlement agreements. We also reviewed the Code of
Federal Regulations (CFR) associated with the FLSA, specifically 29 CFR Parts 570,
579 and 580. However, there are no Federal laws or regulations that prescribe the
negotiation, development, and approval process for the WHD when entering into
settlement agreements to ensure future compliance by employers with the child labor
provisions of the FLSA. Therefore, we determined that WHD’s process for negotiating,
developing, and approving the agreement with Wal-Mart did not violate applicable
Federal laws or regulations. Additionally, nothing came to our attention indicating
evidence of influence or pressure from internal or external sources being applied in the
negotiation, development, or approval of the agreement.

With respect to the content of the agreement, in general, sections of the FLSA define
actions that can or cannot be taken by employers, such as payment of minimum wages,
methods for performing overtime calculations, mandatory record keeping, and child
labor restrictions. The FLSA also addresses the process for determining and paying
back wages due to employees. Section 11(a) of the FLSA details the rights of the DOL
in conducting investigations, inspecting employer facilities and records, and questioning
employees. Section 12(b) gives DOL the right to conduct investigations specifically to
address allegations of child labor violations. Section 216(e) of 29 U.S.C. (section 16(e)
of the FLSA) addresses CMPs in child labor cases:

       Any person who violates the provisions of section 212 of this title or
       section 213(c)(5) of this title, relating to child labor, or any regulation
       issued under section 212 or section 213(c)(5) of this title, shall be subject
       to a civil penalty of not to exceed $11,000 for each employee who was the
       subject of such a violation. Any person who repeatedly or willfully violates
       section 206 or 207 of this title shall be subject to a civil penalty of not to
       exceed $1,100 for each such violation. In determining the amount of any
       penalty under this subsection, the appropriateness of such penalty to the
       size of the business of the person charged and the gravity of the violation
       shall be considered.




10                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements

With few exceptions, the commitments Wal-Mart made in the agreement (see Exhibit A)
represented either measures already being taken by the company, or assurances that
Wal-Mart would adhere to existing laws. Therefore, in determining if the Wal-Mart
agreement complied with applicable Federal laws and regulations, we focused on those
terms that dictated the Department’s actions under the agreement.

We identified three provisions that, in our view, had the greatest potential to limit DOL’s
authority to enforce labor laws with respect to Wal-Mart. Paragraph 6.B of the Wal-Mart
agreement contains two provisions, the first of which requires WHD to provide Wal-Mart
with 15 days notice prior to initiating any WHD audit or investigation of Wal-Mart
facilities covered by the agreement. Neither Section 11(a) nor 12(b) of the FLSA
prohibits WHD from notifying an employer of a forthcoming investigation or requires that
unannounced visits be conducted. Therefore, the 15-day advance notification clause of
the Wal-Mart agreement did not violate the FLSA. Further, we analyzed Section 16(e)
of the FLSA with respect to the second provision of Paragraph 6.B, which eliminates
WHD’s ability to issue a formal citation or collect CMPs if Wal-Mart brings the facility
into compliance within 10 days of a written notification that a violation was found by an
audit or investigation. In our opinion, Section 16(e) gives WHD a great deal of
discretion with respect to the issuance of any CMP assessment. We, therefore,
conclude that the Wal-Mart 10-day provision did not directly violate the FLSA.

Paragraph 8 of the agreement addressed the third provision of concern, which required
that any press releases about the Wal-Mart agreement be developed jointly by WHD
and Wal-Mart. We did not identify any sections of the FLSA that address dissemination
of information regarding investigations of employers or issuances of assessments.
Therefore, we conclude that the provisions of the Wal-Mart agreement do not violate
applicable Federal laws or regulations.

Objective 2 – Does WHD have adequate procedures for negotiating, developing, and
approving settlement agreements?

Objective 3 – How was the Wal-Mart agreement developed, and did it comply with
established policies and procedures?

Results
We analyzed the WHD process for negotiating, developing, and approving the Wal-Mart
settlement agreement. The results of our analysis indicate weaknesses exist in the
management controls surrounding the negotiation, development, and approval
processes. If strengthened, management controls could result in clearer provisions in
such agreements and ensure consistency with WHD policy. We noted breakdowns in
the process for negotiation, development, and approval of the Wal-Mart settlement
agreement, as follows:


U.S. Department of Labor—Office of Inspector General                                    11
Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements



Negotiation
WHD does not have sufficient, established policies and procedures to provide adequate
guidelines for its employees to negotiate and develop agreements with employers.

In response to WHD’s investigations of 27 Wal-Mart stores in 3 states, WHD pursued a
strategy to enter into a national, corporate-wide child labor compliance agreement with
Wal-Mart. However, WHD’s FOH provides little if any guidance regarding the
negotiation, development, and approval of agreements as they pertain to future
compliance with child labor laws.

How WHD Negotiated the Wal-Mart Agreement

The Main Office/District Office (MODO), District Director (DD), for Wal-Mart stated that
in August 2000 he became aware of the first Wal-Mart child labor hazardous occupation
(HO) violations relating to operation of dangerous equipment at a store in West
Memphis, Arkansas. Another child labor HO violation was found in the Little Rock
District in October 2000. Subsequently, in July 2001, a similar child labor HO violation
was found in one store in Connecticut while a back wage complaint was being
investigated. The District Office (DO) in Connecticut then conducted child labor
investigations of all 23 Wal-Mart stores operating in the state at the time. This resulted
in findings of child labor HO violations in 21 of 23 Connecticut stores. In September
2001, another Wal-Mart store in the Little Rock District was found to have committed
child labor HO violations. In November 2001, the MODO DD notified all other DOs of
the status of the Wal-Mart investigations and requested information about pending or
past litigation with Wal-Mart, especially cases involving child labor CMPs. The last Wal-
Mart investigation arose from an Occupational Safety and Health Administration
(OSHA) referral in March 2002, involving a youth who was injured while operating a
chain saw at a New Hampshire Wal-Mart store.

The MODO DD stated that in March 2001, he attempted to determine whether similar
violations existed throughout Wal-Mart by conducting a 5-year search for Wal-Mart child
labor cases in the WHD database. He determined that 21 cases against Wal-Mart had
been entered into the database, but that none were for child labor HO violations. The
MODO DD stated he was aware that Wal-Mart had in the past been cited primarily for
Family and Medical Leave Act (FMLA) violations and not child labor violations.
However, he stated that typically child labor violations are not reported as readily as
FMLA or other types of FLSA violations.

WHD justified entering the nationwide settlement agreement with Wal-Mart based on
the investigations done at 27 stores in three states. Interviews with the Dallas Regional
Administrator (RA) and the MODO DD indicate WHD pursued a strategy to have




12                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements

Wal-Mart sign a national, corporate-wide child labor compliance agreement. In
February 2003, the MODO DD discussed with Wal-Mart’s legal counsel the need for an
agreement to settle the alleged violations. The matter of a national agreement was
revisited in April 2003, and again in September 2003, due to Wal-Mart changing its legal
counsel. The new Wal-Mart attorneys each contended that since the alleged violations
had been found in only three states, a national agreement was too broad in scope. The
MODO DD explained that without a national agreement, WHD would consider
expanding the scope of the investigations by statistically sampling Wal-Mart stores to
determine the extent of child labor violations. In response to requests from Wal-Mart's
attorneys in April and September 2003, the MODO DD provided the Wal-Mart attorneys
with a template of a child labor settlement agreement that could be used as a starting
point to develop the agreement. The MODO DD informed the attorneys that it was an
example of the type of corporate-wide compliance agreement that WHD was seeking to
negotiate with Wal-Mart. Wal-Mart representatives agreed to sign a national
corporate-wide settlement agreement and, using the template as a starting point,
developed the agreement they proposed to sign. No additional investigations were
conducted by WHD and the process of negotiating a national agreement with Wal-Mart
continued.

The Dallas RA stated that resource allocation issues played a significant part in the
decision to sign a nationwide settlement agreement without conducting additional
investigations. In addition, the RA stated the Wal-Mart agreement includes proactive
measures to ensure future compliance with child labor laws. The MODO DD indicated
that he was concerned during the negotiation of the agreement that Wal-Mart would
simply pay the CMPs of $150,600 that had been assessed, without any written promise
to make proactive child labor compliance activities a priority.

Limited Procedural Guidance

The WHD FOH provides WHD with guidelines for initiating and investigating cases to
determine compliance with all laws enforced by WHD. The FOH also details the
method for determining and assessing CMPs when appropriate. However, the FOH
provides little if any guidance for WHD employees when negotiating, developing, and
approving agreements with employers that specifically pertain to future compliance with
child labor laws. The FOH does address jurisdictional issues if an employer has branch
operations located in multiple WHD DO domains. Typically, investigations are
conducted locally. However, the DD in the DO that has jurisdiction over the employer’s
main office, referred to as the Main Office/District Office (MODO), “has overall
responsibility for devising and directing strategies in WHD for dealing with the multi-
office employer . . . in order to maximize compliance issues and strategies.”1

Development
1
    Source can be found at FOH 61a01(a).



U.S. Department of Labor—Office of Inspector General                                    13
Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements



Lack of a formal process for developing agreements with employers resulted in Wal-
Mart attorneys authoring key provisions of the Wal-Mart agreement.

The MODO DD met with Wal-Mart attorneys in April 2003 and September 2003, at
which times he provided them with a template for developing a child labor settlement
agreement. According to the MODO DD, the terms of the Wal-Mart agreement evolved
primarily from proposals submitted by Wal-Mart and edited by WHD, instead of a more
formal negotiation process involving discussion by both parties of specific provisions.

The template included eight paragraphs and seven optional paragraphs. The eight
paragraphs provided were in a fill-in-the-blank format. The eight paragraphs generally
addressed items such as:

       reduction of penalty amounts in light of settlement;
       employer agreeing not to employ workers under 18 to work in hazardous
       occupations;
       employer agreeing not to employ workers under the age of 14;
       requirement that the employer institute specific measures concerning compliance
       with child labor provisions;
       assertion that USDOL does not waive its right to conduct future investigations,
       including but not limited to assessment of CMPs; and
       assertion that the employer does not waive any objections, privileges, or
       defenses with respect to future investigations, assessment of CMPs, or
       proceeding between the parties.

The optional paragraphs for child labor HO violations provided for some specific
measures the employer might implement, such as:

       designating a child labor compliance director;
       training of store managers;
       performing regular internal audits/monitoring of child labor compliance;
       posting of notices on paper balers; and
       posting of USDOL-supplied warning/age restriction stickers on all company-
       owned hazardous equipment.

Wal-Mart’s lawyers amended the template and submitted their version of the agreement
to the MODO DD in February 2004. They eliminated four of the duties specified for the
“Child Labor Compliance Director,” requiring only that the compliance director be
responsible for supervising compliance with the agreement. In addition, Wal-Mart
attorneys drafted key provisions of the agreement that were more favorable to Wal-Mart
than the template and required concessions on the part of WHD. Most importantly, two
of the provisions violated WHD guidelines and/or policies. Additionally, a third provision




14                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements

potentially restricts WHD from issuing citations and/or levying CMPs. The following
discussion addresses these three provisions:

A. The provision in the Wal-Mart agreement requiring WHD to notify Wal-Mart 15
   days prior to any WHD audit or investigation is inconsistent with WHD policy.

The Wal-Mart agreement provides that WHD will give Wal-Mart 15 days prior notice
before initiating audits or investigations of stores covered by the agreement. However,
WHD management published, on WHD’s website, Fact Sheet # 44, dated August 15,
2003, which states that the WHD does not require an investigator to announce the
scheduling of an investigation. The decision to announce investigations remains with
the investigator. Fact Sheet # 44 also states that:

       The investigator has sufficient latitude to initiate unannounced
       investigations in many cases in order to directly observe normal business
       operations and develop factual information quickly.

This is addressed in FOH 52a01(d) as follows:

       The CO shall exercise a practical judgment on a case-by-case basis as to
       whether the appointment procedure is appropriate.

Wal-Mart attorneys drafted provision 6.B of the settlement agreement, which states, in
relevant part:

       During the twelve-month period . . . of this Agreement, the WHD shall
       provide Wal-Mart with fifteen (15) days prior notice of any WHD audit or
       investigation at the stores covered by this Agreement. All such notices
       shall be addressed and sent via Certified Mail (return receipt requested) to
       the following: Corporate Employment Compliance.

In September 2004, Wal-Mart attorneys submitted to the WHD MODO DD the final
version of the agreement that was eventually signed in January 2005. The Wal-Mart
attorneys had removed an edit proposed by the Acting Administrator to limit the scope
of Paragraph 6.B to only child labor investigations. They changed the wording of the
scope to “any WHD audit or investigation.” The effect of this change, on its face, is that
Wal-Mart must receive a 15-day notice prior to WHD initiating an audit or investigation
that relates to any law enforced or administered by WHD, not just child labor violations.

WHD contends this provision is confined to child labor violations only, because the
entire agreement itself is a child labor agreement. In addition, they stated that the
agreement is a child labor agreement as stated in the preamble of the agreement.
Furthermore, the Assistant Secretary for Employment Standards met with Wal-Mart in
February 2005, days before the New York Times article was released regarding


U.S. Department of Labor—Office of Inspector General                                    15
Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements

concerns surrounding the Wal-Mart agreement, to discuss the potential for the parties to
enter into agreements similar to the Wal-Mart “child labor agreement.” Although we
agree this is a “child labor” agreement stemming from child labor violations, it does not
mean that every clause is relevant only to child labor, no matter how it is worded. There
is no other interpretation of the explicit replacement of the words “child labor” with “any”
WHD audit or investigation. Moreover, the MODO DD stated clearly that at the time of
execution of the agreement, he understood the clause to apply to all WHD audits or
investigations, not just those relating to child labor violations.

WHD management contends that they and Wal-Mart intended for the provision to only
relate to child labor investigations. On this point, WHD stated that, of five WHD non-
child labor investigations conducted at Wal-Mart stores since the effective date of the
agreement, none received the 15-day prior notification. We accept management’s
assertion that, since the release of the New York Times article both WHD and Wal-Mart
have chosen to not adhere to the prior notification requirements of the agreement with
respect to non-child labor investigations. However, it is apparent to us that the
language in the provision referring to “any” violations must be interpreted as subjecting
all violations to the 15-day prior notification period before conducting an investigation.

Senior WHD managers further contend that advance notification of investigations not
only complies with FOH guidelines, but is good practice. WHD senior management
claimed that WHD gave up little, if anything, in agreeing to the 15-day prior notification,
because in practice such notification is routinely given, even in child labor HO cases.
Senior management also stated that investigators do not have legal authority to enter
an employer’s property without first securing the employer’s consent or getting a court-
order. Therefore, senior management maintains that unannounced investigations may
waste departmental time and resources because the employer can refuse to provide
documents and/or entry into non-public spaces absent a subpoena or court order. To
support this position, they cite the following passage from FOH 52a01(d):

       In the interest of effective planning and better time utilization, it is
       good practice for the CO [compliance office/investigator] to arrange
       an appointment with an employer to begin the investigation at a
       particular time on a certain day. This saves time for the CO and the
       employer in that both have a definite commitment to be ready. . . .
       Further it gives the employer an opportunity to examine the firm’s
       compliance status objectively and to be knowledgeable about the
       requirements of the Act.

We agree that, in appropriate circumstances, announced investigations can be
beneficial in terms of planning and effective time utilization. However, in our view, even
in light of the requirement to formally obtain access to non-public areas of an employer’s
facility prior to an investigation, the authority to proceed with an unannounced




16                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements

investigation must remain in the control of WHD. The Dallas Regional Director of
Enforcement stated that WHD abdicated enforcement authority by agreeing to the
15-day prior notification provision.

Regarding senior management’s assertion that WHD investigators do not have legal
authority to enter an employer’s property without first securing the employer’s consent
or getting court approval, the information provided by WHD relates to compelled entry
into non-public areas or compelled access to the employer’s documents. WHD
provided us with nothing suggesting that unannounced observation from public areas,
like parking lots or shopping aisles, would be illegal without a subpoena or court order.
In fact, several WHD officials advised us that WHD investigators, particularly in the
agricultural industry, do conduct surveillance and make unannounced visits. In addition,
the fact that an employer may, absent court approval, refuse to consent to inspection of
non-public areas or of employer documentation does not mean that the employer will
always refuse such consent.

The MODO DD contended that another benefit to the prior notice provision is that it
ensures one Wal-Mart corporate manager is given responsibility for promptly remedying
a potentially dangerous child labor violation, which provides continuity when more than
one alleged violation arises. The MODO DD claimed that, absent this provision, notices
to Wal-Mart supervisors about alleged child labor hazardous occupation violations could
take much longer to be addressed because it may take time to find the appropriate Wal-
Mart official to take action. However, the central point for information and responsibility
could have been assigned to Wal-Mart’s Corporate Employment Compliance manager,
as indicated in the agreement, without requiring WHD to give 15 days notice before
investigating alleged violations. That is, the notice to the Wal-Mart official could be
simultaneous with the initiation of the investigation.

A related concern is whether the 15-day prior notice provision could result in WHD
disclosing certain complaint information in violation of WHD policy. The 15-day prior
notice provision provides that the method of notification is by certified mail, but remains
silent regarding the type and amount of information that must be provided to Wal-Mart.
When asked, the MODO DD stated that the notification would have to be sufficient to
allow Wal-Mart to intervene in a child labor safety issue. He indicated this would include
the type of violation, the specific store, and other details as necessary. However, WHD
policy prohibits the investigator from disclosing such details as whether the investigation
is in response to a complaint, the identity of the complainant, and the reason for the
investigation. Specifically, FOH 52d00 provides that:

       The investigator shall take no action, which would reveal the existence of
       a complaint or disclose the identity of a complainant. As a matter of
       policy, WHD does not disclose reasons for making an investigation.

This is reiterated in WHD website Fact Sheet # 44 which states:


U.S. Department of Labor—Office of Inspector General                                    17
Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements


       The WHD conducts investigations for a number of reasons, all having to
       do with enforcement of the laws and assuring an employer’s compliance.
       WHD does not typically disclose the reason for an investigation. Many are
       initiated by complaints. All complaints are confidential; the name of the
       worker and the nature of the complaint are not disclosable; whether a
       complaint exists may not be disclosed.

Because the agreement is silent on the matter and WHD did not notify Wal-Mart in
advance of the five investigations initiated after the agreement went into effect, we were
unable to verify if the information that might be provided as a result of the 15-day prior
notification to Wal-Mart would violate these FOH guidelines and established WHD
procedures. WHD management did state that under no circumstances would it reveal
to Wal-Mart the identity of a complainant.

In summary, WHD management states that time may be wasted as a result of
investigators not having legal authority to enter an employer’s property without first
securing the employer’s consent or getting a court order. We agree that, in appropriate
circumstances, announced investigations can be beneficial in terms of planning and
effective time utilization. However, in our view the authority to proceed with an
unannounced investigation, even if exercised sparingly, must remain in the control of
WHD. This view was echoed during an interview with the ESA Assistant Secretary, who
stated, “unannounced visits should not be discouraged.” The prior notification
requirement in the Wal-Mart agreement as written prevents WHD from making
unannounced investigations of alleged violations, which presumably could include
egregious violations resulting in injury or death of a minor. WHD claims that addressing
such an alleged egregious violation would not be an “investigation” and thus, they would
take immediate action. However, the agreement is silent as to any restrictions to the
advance notification clause. The requirement that WHD provide Wal-Mart with prior
notice before initiating any WHD investigation violates the portion of FOH 52a01(d)
requiring a “case-by-case” determination as to whether notification is appropriate and
could potentially result in WHD disclosing inappropriate information to the employer.

B. A provision may provide for the avoidance of formal citation and penalty
   assessment if Wal-Mart brings its facility into compliance within 10-days of a
   formal notice of alleged violation.

The Wal-Mart agreement contains a provision that allows Wal-Mart 10 days to come
into compliance and, in doing so, effectively avoid the issuance of related citations and
penalties. Specifically, provision 6.B of the Wal-Mart agreement states:

       Where an alleged violation is identified as the result of said audit or
       investigation, prior to and in avoidance of the issuance of a
       formal violation citation and/or penalty assessment, Wal-Mart



18                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements

       shall be provided with (a) formal written notice of such alleged
       violation via Certified Mail (return receipt requested) addressed to
       the Corporate Employment Compliance Group . . . and (b) a period
       of ten (10) business days from the date of receiving such
       formal notice to bring the facility into compliance. [Emphasis
       added.]

When interviewed, the MODO DD and senior management could not clearly define what
the phrase “prior to and in avoidance of” in this 10-day clause means. In particular, they
were uncertain about how the provision would impact the issuance of a citation and
collection of a CMP. Yet, senior management stated that in the event of an egregious
child labor violation resulting in injury or death, they did not consider the agreement to
preclude WHD from taking immediate action or to limit their ability to levy penalties.
Although this agreement stemmed from child labor violations, predominately from
minors operating hazardous equipment, Paragraph 6.B does not make any special
allowances for WHD to take action if an egregious event occurs at a Wal-Mart facility,
such as death or injury to a minor. Other WHD agreements do provide for different
procedures in egregious cases, including those involving injury or death.

Consistent with its plain language, we read this clause to mean that if Wal-Mart brings
the facility where the alleged violation occurred into compliance within 10 business days
from the date of receiving a formal notice, Wal-Mart would avoid issuance of a formal
citation and CMP assessment regardless of the extent of the violation. This is
significant, as the ability to assess and collect CMPs is an important and effective
enforcement tool available to WHD.

Several DDs interviewed indicated that they would never agree to restricting their
authority to issue a citation or reduce or eliminate a CMP in exchange for an employer
taking action to come into compliance after a violation is found by WHD. The DDs
stated they were not even aware that was acceptable under the WHD FOH or policy.
On the other hand, WHD management contends that settlement agreements often allow
employers to entirely avoid penalties for violations simply by taking actions to come into
compliance when the employer discovers the violations through self-audits. In the
Wal-Mart agreement, however, the avoidance of citations is not linked to employer self-
audits or other means of discovery of violations by the employer, but rather violations
discovered during audits and/or investigations conducted by WHD after a 15-day
notification period. We consider this to be a significant distinction between the Wal-Mart
agreement and others that enable employers to avoid CMPs. The Dallas Regional
Administrator (RA) contends that, contrary to the language in the agreement that
restricts WHD’s ability to collect CMPs, this provision would not give Wal-Mart the ability
to avoid CMPs in child labor cases. However, she admitted that a better understanding
of the provision is needed.




U.S. Department of Labor—Office of Inspector General                                    19
Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements

C. The Wal-Mart agreement required jointly developed press releases, in violation
   of stated WHD Press Policy.

Wal-Mart attorneys submitted to WHD in September 2004, the following Paragraph 8,
which was included in the final agreement:

       Prior to the execution of this Agreement, the WHD and Wal-Mart will
       develop the terms of any joint or separate statement(s) issued by either
       party announcing this Agreement to the media and/or the public.

WHD’s Media Policy states “every effort should be made to avoid having publicity or
press releases the subject of negotiations with employers.” WHD senior management
stated that WHD’s acceptance of this provision in the agreement was a result of a
failure in the WHD review and approval process at the very top of the WHD
management, and that this provision should not have been included in the agreement.
In an interview with the OIG, the Assistant Secretary for Employment Standards
indicated that this provision should not have been included in the agreement because
restricting DOL’s dissemination of information to the media is contrary to ESA, WHD,
and DOL policy.

Approval

Lack of a formal process for management review and approval resulted in inadequate
review of key provisions of the Wal-Mart agreement.

Because WHD lacked a formal process for review and approval of settlement
agreements, the Wal-Mart agreement received only cursory review at the highest level
of the WHD. The WHD Regional Office (RO) management and the MODO DD relied on
the fact that the National Office (NO) management was provided with copies of the draft
and final Wal-Mart agreements and approved them. Simultaneously, the NO
management relied on the RO management and MODO DD expertise and experience,
since the RO management and MODO DD had handled many agreements in the past.
NO management also assumed, without confirming, that the terms of the Wal-Mart
agreement were similar to other such agreements.

The review and approval process began with the MODO DD receiving the Wal-Mart
attorneys’ first proposed draft in February 2004. Shortly thereafter, the draft version
was forwarded to the RO and NO. The WHD Administrator then instructed the then-
WHD Deputy Administrator for Policy to review the agreement. The WHD Deputy
Administrator (who subsequently became the Acting Administrator) was under the
erroneous impression that this first draft he reviewed was a document that had already
been subject to significant back and forth negotiations between the parties, and that it
was too late to make any significant changes. Accordingly, he offered what he believed
to be only minor edits after a relatively limited review. In fact, the draft he reviewed was



20                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements

Wal-Mart’s first proposal to modify the template that had been provided by the MODO.
The WHD Deputy Administrator stated that he would have given the document more
careful scrutiny had he known that it was Wal-Mart’s first proposal.

As discussed earlier, Wal-Mart attorneys in September 2004 submitted to the WHD
MODO DD the final version of the agreement that was eventually signed in January
2005. The Wal-Mart attorneys had removed an edit proposed by the Acting
Administrator to limit the scope of Paragraph 6.B to only child labor investigations. They
changed the wording of the scope to “any WHD audit or investigation.” The effect of
this change, on its face, is that Wal-Mart must receive a 15-day notice prior to WHD
initiating an audit or investigation that relates to any law enforced or administered by
WHD, not just child labor violations.

Within days of receipt of the agreement, the MODO DD forwarded it by e-mail to the
Dallas RA, who then forwarded it to the WHD Deputy Administrator for Policy, who was
serving at that time as the WHD (Acting) Administrator. The Dallas RA also forwarded
the agreement by e-mail to the Director of External Affairs in the NO. The e-mail was
tagged as “High” importance. The MODO DD stated in the e-mail:

       The two largest changes I detect are as follows:
             Item #6B: concerning WHD providing 15 days notice prior to any
             child labor violation has been changed to ‘prior to any
             investigation’.
             Item #8 calls for the joint development of any press releases.

In her reply e-mail to the Dallas RA, which also was sent to the Acting Administrator, the
Director of External Affairs stated, “at first blush, these are not acceptable changes, are
they?” No further edits were made to the agreement.

Thus, the press release provision as written by the Wal-Mart attorneys remained
unchanged. Additionally, the final agreement states that any WHD audit or investigation
was subject to advance notification, not just child labor issues. The earlier version
stated “the WHD shall provide Wal-Mart with fifteen (15) days prior notice of an intended
WHD child labor audit or investigation at stores covered by this Agreement.” The Acting
Administrator gave his approval to enter into the agreement, although he never opened
the September 2004 e-mail from the Director of External Affairs questioning the
acceptability of the most recent changes, of which he was unaware. The Acting
Administrator stated that although he had not reviewed the final changes or the
September 2004 e-mail, he relied upon the review and advice of others in approving the
agreement. In support of this reliance, WHD management cites an e-mail received in
November 2004 from the Director of External Affairs to him that stated:

       . . . can we please just say ‘yes’ at this point to the CL Agreement
       with WalMart. The agreement is not going to get any better. Lets


U.S. Department of Labor—Office of Inspector General                                    21
Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements

         just get this one behind us. The agreement is of short duration. If
         violations persist or reappear at the end of a year, we can deal fresh
         with WalMart, if necessary. Cynthia [the Dallas RA] and I talked about
         this when I was in Dallas.

We conclude that a significant breakdown occurred in the review and approval of the
Wal-Mart agreement. The Deputy Administrator for Policy/Acting Administrator failed to
provide an adequate substantive review of the first draft submitted by Wal-Mart, and
then again, did not review subsequent drafts that were presented to him. This occurred
due to his mistaken belief that they remained largely unchanged from the first draft,
although he took no steps to confirm this.

This breakdown in the process resulted in the acceptance of a Wal-Mart settlement
agreement that contained the 15-day and 10-day provisions, as well as the provision
governing press releases. WHD never expressed to Wal-Mart any objection to these
provisions. Therefore, the extent to which these provisions were negotiable from Wal-
Mart’s perspective remains unknown. In addition, WHD management involved in the
development and approval of the Wal-Mart agreement stated in interviews that they
were uncertain as to the meaning of the 15/10-day provision or how they would be
implemented. Further, although not favored by at least some WHD management staff,
WHD management accepted two key changes made by Wal-Mart: a) the removal of
the limitation on the 15/10-day notice provisions to only child labor investigations, as
opposed to any WHD investigations; and b) the requirement of a jointly developed
press release.

Lack of adequate guidelines resulted in the Wal-Mart agreement not receiving review
from the Office of the Solicitor (SOL).

Throughout the negotiation and development processes, Wal-Mart was represented by
outside legal counsel as well as in-house legal counsel. However, WHD never
consulted the DOL Office of the Solicitor for advice at the Regional (RSOL) or the
National (SOL) level. In 12 of 13 similar agreements reviewed2, the process of
developing and approving the agreements did include the review of the RSOL. In most
cases the RSOL was principally involved in drafting the agreements, with contributions
from WHD management. In the Wal-Mart agreement, the RSOL was not asked to
review the agreement or otherwise participate in the agreement process. This is
despite the fact that Wal-Mart is the nation's largest retailer and, as noted earlier, Wal-
Mart's lawyers were heavily involved in the agreement’s drafting. It should be noted that
some of the agreements we identified in other RO/DOs that did go to SOL were
2
 The 13 agreements were similar to Wal-Mart because they met the following three criteria: 1) the
employer had civil monetary assessments over $25,000 for child labor violations; 2) the employer
operated in numerous physical locations and would be considered a chain of stores; and 3) the employer
and DOL signed either a compliance, litigation settlement or administrative settlement agreement as a
result of child labor investigations.




    22                                        U.S. Department of Labor—Office of Inspector General
                                                                  Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements

required to do so because they involved a consent decree/judgment. Therefore, these
are not necessarily representative of what these other RO/DOs might have done had
they been handling the Wal-Mart agreement. The lack of SOL involvement may have
been attributable to the lack of adequate guidelines concerning when and how to obtain
SOL review and/or lack of clarity about whether it was the NO, the RO, or the DO that
was responsible for seeking SOL review.

The Dallas Regional Solicitor and the attorney on his staff designated to handle ESA
matters stated that they first became aware of the settlement agreement with Wal-Mart
when the Solicitor of Labor contacted his office after the signed agreement had become
national news. The Dallas RA stated that she did not consult with the RSOL regarding
the Wal-Mart agreement because she did not consider the agreement to be unusual.
The Dallas RSOL, on the other hand, considered the lack of notification by WHD to be
atypical.

According to the Dallas RA, she met regularly with the Dallas/Denver RSOL, usually
once per quarter. The RSOL’s designated-ESA attorney stated that she maintains
continuous contact with the various DOs within her region. Additionally, she visits each
office yearly to meet with all personnel and inform the DO of the services the RSOL
provides. Frequent “Combined Joint Review Conference” (CJRC) calls are conducted
between the Dallas RSOL and the Regional or District WHD offices to discuss ongoing
cases that may result in litigation. Under these circumstances, given the long period
over which the Wal-Mart agreement was pending, we conclude there was ample
opportunity for RSOL review. In addition, the WHD NO management could have sought
SOL review at DOL headquarters in Washington, D.C. It is possible that, like other
breakdowns in communication relating to the Wal-Mart agreement, the NO and RO
each considered it the other's responsibility to seek guidance or review from SOL.

FOH 61b03 addresses the importance of CJRC calls when an investigation of a Main
Office Employer (MOER) branch establishment appears to meet potential litigation
criteria. According to FOH 61b03:

       a. If it is decided the facts warrant consideration for litigation by
          DOL, a Combined Joint Review Conference (CJRC) call will be
          organized cooperatively by the MODO and the BRDO [Branch
          District Office] Mgrs.

          (1) The members of the CJRC will include: 1) the BRDO
              Manager and BRDO Investigator, 2) the MODO Manager, 3)
              the R/SOL representative . . . 4) the WHD RA . . . and 5) an
              NO/OEP [National Office / Office of Enforcement Policy]
              representative(s), if the MODO Manager deems appropriate
              because of significant national issues, or a national
              enterprise (multi-region) is involved.



U.S. Department of Labor—Office of Inspector General                                    23
Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements


       b. The purpose of the CJRC is to consider whether litigation is
          appropriate and, if so, which of the possible litigation strategies
          would best suit the case. It is essential . . . that all parties
          including the BRDO, the MODO, and appropriate RSOL offices
          be involved in the decision on strategy to be employed.

In internal WHD e-mails sent between February 2002 and February 2004, the RO and
MODO DD discussed the possibility of litigation against Wal-Mart. Text of a February
2003 e-mail indicated that the Dallas RA had consulted with the WHD Administrator
regarding the best strategy to employ with Wal-Mart. However, the managers failed to
include a representative from SOL in these communications despite guidance from FOH
61b03 and the open lines of communication between the Dallas RSOL and RO. Even
though WHD decided not to litigate against Wal-Mart, had management consulted with
a representative from SOL in that decision, the RSOL at a minimum would have been
informed of the strategy to enter into a corporate-wide settlement agreement with Wal-
Mart. Under those circumstances, SOL would have had an opportunity to become
involved in the negotiation and/or review of the Wal-Mart agreement.

Routinely, the Dallas RO limits the use of the RSOL in resolving open WHD cases to
those involving litigation. Typically, the Dallas RO does not involve the RSOL when
negotiating settlement agreements unless the DO or the RO think they have legal
issues to be addressed. The MODO DD confirmed this Dallas RO practice by stating
that the RSOL becomes involved when agreements with employers require judicial
action to force employers into compliance. When no potential litigation exists, the
determination of RSOL’s participation is made on a case-by-case basis.

The Dallas RA contends that the template agreement that the MODO DD presented to
the Wal-Mart attorneys in April and September of 2003 had been reviewed and
approved by the RSOL. This template became the starting point for the settlement
agreement with Wal-Mart. As discussed earlier, however, Wal-Mart attorneys drafted
several key provisions of the final agreement, which went beyond the standard template
that was used as a starting point. Edits from Wal-Mart attorneys, as well as from WHD
representatives, were incorporated into the final agreement signed in January 2005.
Although the SOL reviewed the template used as a starting point for developing
settlement agreements, they did not review the subsequent modifications that were
incorporated into the final signed agreement between WHD and Wal-Mart.

The policy and procedures of ESA WHD as demonstrated in connection with the Wal-
Mart agreement are not sufficient to provide adequate guidance for its employees when
entering into agreements with employers. Consequently, opportunities exist to develop
stronger agreements with employers and to include more proactive compliance
measures. This can be accomplished through the development and implementation of




24                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements

written procedures with management controls governing the process of entering into
child labor compliance agreements with employers.

Objective 4 – How does the Wal-Mart agreement compare with other agreements
entered into between WHD and other employers?

Results
The agreement signed between Wal-Mart and WHD was significantly different from
other agreements entered into by WHD.

Our review and analysis of the Wal-Mart agreement was initially compared to 13 other
similar3 agreements. Through this analysis, we identified three anomalies within the
Wal-Mart agreement that limited WHD’s authority over Wal-Mart. These limitations
pertained to the authority to: 1) conduct investigations; 2) issue citations and collect
CMPs; and 3) disseminate information regarding the agreement to the public or media.
We also determined that provisions addressing employer-performed audits/monitoring
and proactive measures taken by the employer were prevalent in the agreements,
including Wal-Mart. We therefore expanded our comparison of WHD agreements to
more fully understand the extent of these anomalies and provisions in a broader
population of WHD agreements. We reviewed all 424 agreements, including Wal-Mart,
provided by WHD as having been in place at any time during a 10-year period. WHD
categorized the agreements as follows:

    •   Compliance agreements or partnerships entered into between WHD and a
        company to promote corporate-wide compliance with labor laws. Some
        agreements were entered into as a result of violations found against the
        employers in multiple employer establishments;

    •   Litigation settlement agreements entered into to resolve FLSA minimum wage,
        overtime, and child labor violations after the investigation file had been referred
        to the SOL for litigation; and

    •   Administrative settlement agreements entered into to resolve FLSA minimum
        wage, overtime, and child labor violations prior to the initiation or referral of the
        investigation for litigation. It is possible that some of these cases were referred
        to the Regional Solicitor, but settled by Wage and Hour.


3
  The 13 other agreements were similar because they met the following three criteria: 1) the employer had
civil monetary assessments over $25,000 for child labor violations; 2) the employer operated in numerous
physical locations and would be considered a chain of stores; and 3) as a result of child labor
investigations the employer and DOL signed either a compliance, litigation settlement or administrative
settlement agreement. We limited our review to only one employer per industry.



U.S. Department of Labor—Office of Inspector General                                                 25
Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements




                         TYPES OF LAW ENFORCED
                              Total = 424 Agreements


                                                          FLSA
                                                           8%

                                                             OTHER
                  CL                                          6%
                 73%

                                                             BW
                                                             11%

                                                        MW
                                                        2%


                         BW     MW      CL    FLSA     OTHER



Of the 424 agreements, 73 percent pertained strictly to child labor violations and future
compliance with the child labor provisions of the FLSA. Agreements that required the
amount and method for the employer to pay back wages (BW) amounted to 11 percent
of the total. Only 2 percent of the agreements limited their provisions to enforcement of
minimum wages (MW) without mentioning payment of back wages. A total of 8 percent
specified compliance with at least two of the major provisions of the FLSA; minimum
wage and overtime, back wages, record keeping, and child labor. The remaining 6
percent of the agreements (OTHER) concerned more than one law enforced by WHD,
typically FLSA and FMLA; goods produced with labor in violation of FLSA involving
manufacturing, usually garment, firms distributing “hot goods” to retailers; and
agreements that did not fit into the above categories.




26                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements

We also tallied all agreements that had reference to the following matters and made
notations of the specifics of these clauses:

    •   Press Releases
    •   Restrictions on DOL’s Ability to Initiate Investigations or on the Timing of Such
        Investigations
    •   Restrictions on DOL’s Authority to Issue CMP Assessments
    •   Employer Conducted Audits/Monitoring
    •   Proactive Measures for Future Compliance

The following table indicates the frequency of these provisions in the 424 agreements
reviewed.4

    Table 1

                   AGREEMENTS WITH SPECIFIC PROVISIONS
                             424 Agreements Reviewed
                                                    Agreements
                  Type of Provision                with Provision                  % of Total
    Press Releases                                         7                        1.65 %
    Restrictions on DOL to Initiate Investigations
       or on the Timing of Investigations                 19                        4.48 %
    Restrictions on DOL to Assess CMPs                    22                        5.19 %
    Employer Conducted Audits/Monitoring                 109                       25.71 %
    Proactive Measures for Future Compliance             275                       64.86 %




4
 Each agreement may contain more than one attribute tested; therefore, the total number of attribute
entries is greater than the total number of agreements reviewed.



U.S. Department of Labor—Office of Inspector General                                                   27
Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements



Analysis of Press Release Clauses
Seven of the agreements contained provisions related to the development and release
of information to the media. Of these, one child labor agreement (Wal-Mart) and two
other FLSA agreements provided that DOL would jointly develop press releases with
the employer. The remaining four agreements, all of which related to back wages,
restricted DOL from releasing information to the media, with the exception of information
required to be released pursuant to the Freedom of Information Act (FOIA). The Wal-
Mart agreement (CL) provision states clearly, without restriction, that:

       Prior to the execution of this Agreement, the WHD and Wal-Mart will
       develop the terms of any joint or separate statement(s) issued by either
       party announcing this Agreement to the media and/or the public.

The other two agreements found to involve jointly developed press releases were not
comparable to the Wal-Mart agreement. One agreement was a voluntary compliance
agreement not arising from violations. The provision for a press release in the other
FLSA agreement did not require joint agreement as to the terms of a press release, but
only provided that WHD would “consider incorporating any reasonable [employer]
suggestions or revisions. The Wage & Hour national office may make additional
revisions to the initial draft.” This clause, therefore, unlike the Wal-Mart agreement,
preserved WHD’s control of the final press release.

Of the four agreements that totally prevented DOL from releasing any information,
unless required by the FOIA, all are for BW agreements and connected to press
releases for employer compliance. Specifically, in each of these cases the agreement
stipulates that DOL will not release any information to the press or public concerning the
employer’s voluntary compliance efforts, the self-audit, or results of the self-audit.

Analysis of Restrictions on DOL's Initiation of Investigations
Of the 424 agreements reviewed, 19 (4.5 percent) included clauses limiting WHD’s
ability to initiate investigations or restricting the timing of such investigations. One type
of limitation on WHD’s ability to initiate investigations required WHD, prior to conducting
its own investigations, to refer complaints to the employer for the employer’s further
action, which usually involved the employer conducting its own investigation or self-
audit. These employer self-audits either acted as a substitute for or delayed a WHD
investigation of the complaint.

Factors that remove limitations on WHD’s ability to initiate investigations were included
in 15 of the 19 agreements. These factors include:




28                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements

       investigations arising from complaints of egregious or child labor violations;
       industry-directed investigations, predominately in health care cases;
       employer not in substantial compliance with the agreement;
       WHD and the employer cannot agree on the establishments at which self-audits
       are to be conducted; or
       based on issue(s) involved, WHD decides to investigate.

The remaining four agreements did not include any conditions that would remove the
restrictions on the initiation or timing of WHD investigations. Of these four agreements,
three, including Wal-Mart, incorporated a restriction requiring WHD to notify the
employer a specified number of days prior to initiating a WHD investigation. The Wal-
Mart agreement provided that WHD provide Wal-Mart with 15-days advance written
notice before any audit or investigation could be initiated. However, unlike the Wal-Mart
agreement, the time restrictions on WHD included in the other two agreements only
applied if the employer’s establishment was scheduled for but had not yet started or
completed a self-audit. Otherwise, WHD was not restricted in the commencement of an
investigation. The other two agreements further prescribe that the employer has 10
calendar days to complete the self-audit and upon request the employer shall disclose
at the outset of the WHD investigation the findings of such self-audit to the WHD. The
fourth agreement required the employer to perform self-audits with a defined
methodology and scope that included specific agreed-upon procedures for identifying
and calculating back wages due to non-exempt security personnel. Although the
agreement required the employer, instead of WHD, to resolve complaints, it only applied
to complaints covered by the self-audit period and included WHD’s involvement in the
resolution of the complaint.

In summary, 19 agreements contain restrictions on WHD’s ability to initiate
investigations, but in 15 agreements there are factors where restrictions can be
removed, allowing WHD to initiate an investigation. The restrictions on three
agreements were predicated on the employer conducting self-audits. Wal-Mart's
agreement was the only agreement that neither had factors that removed the restriction
nor tied the time restriction to the employer's self-audits.

Analysis of Restrictions on DOL to Assess CMPs
Twenty-two of 424 agreements (5.2 percent) included some form of restriction on
WHD’s assessment of CMPs. Any such restrictions are significant, because the ability
to assess and collect CMPs is an important enforcement tool available to WHD.

Of the 22 agreements placing restrictions on CMP assessments, 21 (all except Wal-
Mart) precluded WHD from assessing CMPs against the employer if the labor law
violations were found as a result of the employer conducting a self-audit. Further, most
of the 21 agreements included one or more of the following conditions that would permit
WHD to proceed with assessing CMPs:


U.S. Department of Labor—Office of Inspector General                                    29
Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements


        self-audit not conducted to WHD’s satisfaction;
        self-audit found child labor violations;
        alleged violations contributed to the death or injury of a minor;
        employer violates the terms of the agreement;
        employer failed to pay back wages found from self-audit; or
        employer did not immediately correct the violation.

Although 22 agreements provided some circumstance under which WHD would be
precluded from assessing CMPs, the Wal-Mart agreement was the only agreement that
did not predicate the CMP restriction on the employer discovering the violation through
a self-audit. The WHD agreement with Wal-Mart was also the most far-reaching in
precluding CMPs, in that Wal-Mart was given 10 days, from WHD’s formal notification
that its investigation had disclosed violation(s), to correct the violation(s) and otherwise
bring the facility into compliance and avoid a CMP. As the agreement makes no
distinction, this is apparently the case regardless of the nature or severity of the
violation(s).

Analysis of Proactive Measures
Proactive measures were included in 275 of the 424 agreements (65 percent). The
specific measures required the employers to incorporate activities into their operating
procedures that would help prevent the labor law violations that prompted the
agreement. Of the 275 agreements with proactive measures, 239 (87 percent)
pertained to ensuring future compliance with child labor provisions of the FLSA.
Depending upon the type of child labor violation that precipitated the agreement, these
measures generally addressed preventing either hazardous occupation violations or
violations that resulted in minors working during non-allowable hours. Due to the
volume and diversity of proactive measures incorporated into these agreements, we
limited our analysis to comparing the Wal-Mart agreement to a subset of 13 agreements
from the 424 agreements. These 13 agreements were most similar to the facts and
circumstances of the Wal-Mart case in that the employer:

     1) had CMP assessments over $25,000 for child labor violations;
     2) operated in numerous physical locations and would be considered a chain of
        stores; and
     3) signed either a compliance, litigation settlement, or administrative settlement
        agreement as a result of child labor investigations.

Similar measures were noted in most of the 14 agreements, including Wal-Mart, that we
reviewed. These measures are broadly categorized as follows:




30                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements



       An ombudsman or similar type designation, such as a compliance director
       or official, was commonly found in child labor agreements to oversee
       compliance with the agreement. Additional responsibilities of the ombudsman
       included updating and revising managers' training materials, investigating future
       violations, and implementing remedial measures. Of 14 agreements, 5 did not
       include an ombudsman reference. In nine other agreements, reference to the
       ombudsman was included with varying degrees of responsibilities. The Wal-Mart
       agreement did designate a compliance official; however, the only responsibility
       of the position was the general supervision of the agreement.

       A 1-800 hotline number or similar resource was made available for
       reporting alleged violations or receiving answers to labor law questions. If
       violations were reported, the company agreed to investigate the allegations and
       take appropriate corrective action. Of 14 agreements, 6 agreements did not
       include such a measure. The Wal-Mart agreement did not contain such a
       provision. However, according to WHD management, toll-free telephone
       numbers were already in existence at Wal-Mart prior to the development of the
       agreement. Therefore, it was not included as a provision in the agreement.

       Several agreements address the implementation of a system, such as
       color-coded nametags, which designate employees as minors. To ensure
       that minors did not work in excess of the maximum allowable hours or during
       restricted hours, work schedules often identified minors. Because Wal-Mart
       reportedly does not hire minors under the age of 16, these actions to prevent
       minors from working unallowable hours was not considered necessary. Also,
       according to WHD, Wal-Mart requires 16- and 17-year-olds to wear color-coded
       badges.

       All companies agreed to place warning notices on hazardous equipment
       identifying the age restrictions to ensure prevention of future HO child
       labor violations. The Wal-Mart agreement states that Wal-Mart agrees to
       continue posting WHD-supplied warning/age restriction stickers on all company-
       owned hazardous equipment in the store areas where minors work, including but
       not limited to cardboard balers, cardboard compactors, and freight elevators.
       Some agreements included reference to having hazardous equipment key-
       locked to ensure compliance; Wal-Mart and other agreements did not.

       Some agreements required oversight by senior management of local
       managers’ staffing decisions to ensure sufficient number of employees
       over the age of 16 are scheduled to work during prohibited hours, and that
       enough employees over 18 years old are scheduled to operate HO
       equipment. Of 14 agreements, 5 included senior management review. One
       agreement required senior management’s policy support and that they actively


U.S. Department of Labor—Office of Inspector General                                    31
Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements

       participate in the training initiative. One agreement required that senior
       management review compliance results. Wal-Mart and six other agreements
       made no reference to this provision.

       The development and implementation of child labor compliance training
       programs is commonly included in these agreements. We noted all 14
       agreements had training programs included. The Wal-Mart agreement requires
       new managers to be trained on child labor compliance during orientation and
       through online reference. Current Wal-Mart store managers receive their
       training through computer-based learning on HO equipment. Although minors
       are required to receive training in other agreements reviewed, Wal-Mart’s
       agreement does not address the issue of training minors.

       Of 14 agreements, 13 require reference materials, such as “Facts Sheets”,
       “At-A-Glance Info”, booklets, posters, letters and or memoranda to be
       distributed to new hires, managers, and or parents informing of child labor
       compliance issues. We did not find a similar reference in the Wal-Mart
       agreement.

       Of 14 agreements, 6 addressed the issue of discipline for manager non-
       compliance, and 8 did not. In the Wal-Mart agreement and five other
       agreements, disciplinary actions were included. Also, Wal-Mart and four of
       these agreements indicated that disciplinary actions would be taken “up to and
       including termination.”

       Of 14 agreements, 10 referenced a requirement to report results of actions
       taken to identify violations and document results of actions taken to
       remedy these violations. The requirement to report out varies in the level of
       detail and frequency. While most agreements require quarterly reporting, others
       require reporting on a semiannual or annual basis. The Wal-Mart agreement
       requires that reporting occur at the end of the one-year term of the agreement.

We found a degree of consistency in the terms and provisions within this subset of the
total child labor agreements. We conclude that the Wal-Mart agreement did not stand
out from others, in that we found little uncommon or unique in its provisions in
comparison to other proactive provisions found in similar agreements.

In addition, a total of 109 agreements of the 424 reviewed (26 percent) included
provisions describing audit/monitoring activities to be performed by the employer. Of
these 109 agreements, 59 agreements (54 percent) were designed to address child
labor law compliance. We found the provisions regarding employer-conducted
audit/monitoring varied in scope, frequency, degree of detail, and the level of DOL
supervision and approval of results. Senior management confirms that there is no set
definition for employer-conducted audits, commonly understood as “self-audit,” and



32                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements

there is no common understanding among employers regarding specific steps that must
be taken when a self-audit is being conducted.

Of the 109 agreements, many incorporated the standard template language found in the
“optional” paragraphs of the agreement template that stated the employer:

       . . . shall include in its regular inspections of all its establishments internal
       audits / monitoring of child labor compliance.

In the Wal-Mart agreement, references to conducting audits/monitoring were as follows:

   Wal-Mart agrees to continue monitoring its compliance with child labor laws
   as part of its quarterly STARS reviews and annual store file reviews. During
   these reviews, all hazardous equipment in the store areas where minors
   work, including, but not limited to, balers and compactors, will be reviewed for
   proper signage clearly informing associates under age 18 that they must not
   operate such equipment.

In summary, Wal-Mart ‘s agreement, as well as many other agreements, did not provide
sufficiently detailed procedures to be conducted by the employer in conducting
audits/monitoring activities. This lack of clear definition of the scope, methodology and
reporting of the procedures and results for audit/monitoring activities weakens the
Department’s ability to enforce these agreements and undermines the level of reliance
on the information obtained from these employer compliance activities.

Summary of Audit Results

With few exceptions, the commitments Wal-Mart made in the agreement represented
either measures already being taken by the company, or assurances that Wal-Mart
would adhere to existing laws. While we found that WHD’s process for negotiating,
developing, and approving the Wal-Mart agreement did not violate applicable laws or
regulations, we determined WHD does not have sufficient policies and procedures
governing settlement agreements. We also identified three provisions of the Wal-Mart
agreement -- the 15-day prior notice clause, the 10-day compliance period, and the
development of joint press releases – that limit WHD’s authority over Wal-Mart. Finally,
our comparisons of the Wal-Mart agreement with other agreements revealed the
following:

       1. Release of information to the media -- Limitations on press releases were
          rarely addressed in WHD agreements (present in only 7 of 424 agreements),
          and run counter to WHD policy. The Wal-Mart agreement was more specific
          than others in requiring mutual agreement in the development of the press
          release.



U.S. Department of Labor—Office of Inspector General                                       33
Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements

       2. Limitations on WHD's authority to conduct investigations, or on the timing of
          investigations -- Such limitations were also rarely addressed (19 out 424
          agreements), and Wal-Mart's agreement was the most far-reaching.
       3. Restrictions on assessing CMPs -- Such restrictions were only included in
          about 5 percent of the agreements, and, with the exception of Wal-Mart, were
          uniformly predicated on the employer discovering the violation through a self-
          audit. The Wal-Mart agreement was also the most far-reaching in precluding
          CMPs in that the 10-day provision gave Wal-Mart 10 days to correct any
          violation, regardless of its nature or severity, in order to avoid a CMP.
       4. Employer-conducted audit/monitoring -- The level of detail describing the
          scope, methodology and reporting of results of employers’ self-audits is not
          adequately defined and/or consistent among agreements.
       5. Proactive measures -- A degree of consistency exists in the terms and
          provisions within a subset of the total child labor agreements. We conclude
          that Wal-Mart’s agreement did not stand out from others, in that we found little
          uncommon or unique in its provisions in comparison to other proactive
          provisions found in other similar agreements.

Overall Conclusion

Although we did not find that the Wal-Mart agreement violated Federal law or regulation,
we did find serious breakdowns in the Department's process for developing, negotiating,
and approving such agreements. These breakdowns resulted in the Department
entering into an agreement that gave significant concessions to an employer (advance
notification of future investigations and ability to avoid civil money penalties) in
exchange for little commitment from the employer beyond what they were already doing
or required to do by law.

Recommendations

We recommend that the Assistant Secretary for Employment Standards:

1. Develop and implement written procedures for negotiating, developing, and
approving agreements with employers. Specifically, the new procedures should
provide, at a minimum:

       sufficient detail to ensure that all agreements include specific required elements
       and exclude elements that are unacceptable;
       appropriate levels of approval at the District Office, Regional Office,
       and National Office;
       guidelines that identify: the bounds within which agreements may
       be negotiated; the provisions that should be considered for
       inclusion;, and those provisions that are not negotiable; and




34                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements

       requirements regarding employer audit/monitoring provisions that
       are sufficiently detailed to ensure the adequacy and completeness
       of such provisions.

2. Require all future agreements be developed in coordination with the
SOL, to include consultation, drafting of key elements, and clearance
before execution.

ESA's Response to the Draft Report

ESA responded it agrees with OIG’s conclusion that the process previously employed
by WHD in negotiating settlement agreements required greater control and oversight.
As a result, WHD has developed a new policy surrounding its settlement negotiation
process, which ESA believes will effectively implement all OIG recommendations.

However, ESA strongly disagrees with the report’s overall characterization of the
effectiveness of the Wal-Mart child labor settlement agreement. Further, ESA believes
that the OIG report gives the impression that: Wal-Mart was consulted before the
Department issued its press release announcing the agreement; advance notice has
been provided to Wal-Mart for WHD investigations involving matters other than child
labor situations; and Wal-Mart has been permitted to avoid all penalties for violations of
Federal law simply by bringing its stores into compliance. ESA contends that the
requirement for advance notification applies only to child labor violations, and would not
prevent them from intervening in the event of hazardous situations. In challenging our
reading of the agreement, ESA argues various points of contract law it claims control
how the document should be interpreted. ESA’s response is included in its entirety as
Appendix D.


OIG’s Conclusion

We considered ESA’s response in its entirety and found no additional information that
would materially affect our conclusion that breakdowns in the settlement agreement
process resulted in the WHD entering into an agreement that gave significant
concessions to Wal-Mart (advance notification of future investigations and ability to
avoid CMPs) in exchange for little commitment from the employer beyond what it was
already doing or required to do by law.

We disagree with ESA’s response that the OIG report mischaracterizes the Wal-Mart
agreement’s value or the effect of the agreement on WHD obligations and ability to
properly exercise its enforcement authority. We found in our analysis of the provisions
of the Wal-Mart agreement a significant number of provisions that either required Wal-
Mart to comply with existing law or to “continue” actions already being conducted. In



U.S. Department of Labor—Office of Inspector General                                    35
Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements

contrast to other agreements we reviewed, the WHD agreement with Wal-Mart was the
most far-reaching in precluding CMPs and limiting WHD’s ability to initiate
investigations.

We do not believe our report implies that Wal-Mart was consulted prior to the press
release. We did not find any evidence that that was the case. Also, we did not state
that Wal-Mart has avoided any penalties simply by bringing a store into compliance.
We did note that based on the language in the agreement, the 10-day provision was
designed to allow Wal-Mart to avoid penalties if compliance is achieved.

ESA contends that the advance notification provision applies only to child labor
violations, and would not prevent it from intervening in the event of hazardous
situations. ESA raises various contract law issues in support of its argument. We
continue to maintain that the plain language of the advance notification clause applies to
any potential violation, not just child labor. Further, the Regional Administrator told us in
an interview that, should she become aware of a potential child labor safety or health
violation that she considered egregious, she intended to contact the Office of the
Solicitor to see what they could do. We also note that, subsequent to the agreement,
this provision has not been applied to other types of wage and hour cases. However,
the fact that ESA and Wal-Mart, subsequent to the written agreement, mutually may
have chosen to do otherwise does not change what is required by the agreement. More
importantly, however, inherent in our conclusion and recommendations is that ESA
should not have to rely on legal arguments to interpret and enforce its agreements.

The report findings and recommendations remain unchanged. However, based on
policy issued by WHD in June 2005, we consider these recommendations to be
resolved but open pending OIG’s review and analysis of the guidelines to ensure all
aspects of the recommendations have been met.




Elliot P. Lewis
September 21, 2005




36                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements




Exhibit




U.S. Department of Labor—Office of Inspector General                                    37
Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements




                       PAGE HAS BEEN INTENTIONALLY LEFT BLANK




38                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements

                                                                               EXHIBIT A




U.S. Department of Labor—Office of Inspector General                                    39
Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements




40                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements




U.S. Department of Labor—Office of Inspector General                                    41
Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements




42                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements




Appendices




U.S. Department of Labor—Office of Inspector General                                    43
Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements




                       PAGE HAS BEEN INTENTIONALLY LEFT BLANK




44                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements

                                                                             APPENDIX A
BACKGROUND

WHD Organization and Operations

The WHD is a division within the Employment Standards Administration of the
Department of Labor. A total of 48 District Offices report to 5 Regional Offices. Each
Regional Office reports to the National Office. The table below indicates the location,
number of states/territories and number of District Offices for each WHD Regional
Office.


                             WAGE AND HOUR DIVISION
                                                 Number of         Number of
          Region                Location         Territories     District Offices
       Northeast         Philadelphia, PA             17                14
       Southeast         Atlanta, GA                    8               10
       Midwest           Chicago, IL                  10                  8
       Southwest         Dallas, TX                   11                  8
       Western           San Francisco, CA            12                  8
                                          Totals      58                48

WHD administers and enforces various Federal labor laws, including the FLSA, which
includes provisions for child labor protections. They have the authority to engage in civil
and criminal remedies. Since 1974, FLSA contained a civil money penalties (CMP)
provision for child labor violations. The 1989 Amendments to FLSA added a provision
for CMP for repeated or willful minimum wage or overtime violations. Other major labor
statutes administered and enforced by WHD include: Family and Medical Leave Act,
Consumer Credit Protection Act, Davis-Bacon and Related Acts, McNamara-O'Hara
Service Contract Act, Immigration and Nationality Act, Migrant and Seasonal
Agricultural Protection Act, and Walsh-Healey Public Contracts Act.

According to the “DOL’s Strategic Plan for Fiscal Years 2003 – 2008”, Goal 2 is to
promote the economic security of workers and families. Accordingly:

       The Department is committed to achieving the highest level of protection
       for our workforce including: Protecting workers' wages and working
       conditions. . . . While our commitment to worker protection is steadfast,
       our approach is expanding to providing extensive compliance assistance
       in helping employers comply with our regulations. Compliance assistance,
       along with targeted enforcement, will help prevent violations, leverage our
       resources, and position the Department to deal with 21st century
       challenges.

The “DOL’s Strategic Plan for Fiscal Years 2003 – 2008” describes compliance
assistance as “… preventative in nature -- aiming at intervention before harm is done,

U.S. Department of Labor—Office of Inspector General                                    45
Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements

rather than solely enforcing the law afterwards. It complements the Department's
vigorous enforcement of its laws.” The strategy designed by DOL to accomplish this
goal includes development and support of crosscutting activities pertaining to
coordinated compliance assistance. DOL anticipates that this will assist the regulated
community of employers and labor unions to better understand their responsibilities
under various worker protection laws. The “DOL’s Strategic Plan for Fiscal Years 2003
– 2008” further states that, “Laws mandating inspections will continue to be enforced,
but enforcement will be better focused and complemented by more compliance
assistance and continued worker involvement in the inspection process.”

The DOL strategy to employ compliance assistance in meeting its goals of providing a
safe work environment is incorporated into WHD’s vision statement. WHD maximizes
“its impact on compliance through a comprehensive enforcement program, leveraging
its resources and serving as a catalyst for action by others to promote compliance."

WHD Case Investigation Process

The WHD investigative process typically originates either from a directed investigation
or from a complaint driven investigation. Under most circumstances the District Office
(DO) handles investigations within its jurisdiction. If an employer has branch operations
located in different district office jurisdictions, the District Director of the WHD office
located closest to the employers’ corporate headquarters becomes the MODO (Main
Office / District Office).5 The MODO may decide that the negotiation and resolution of
the findings of an investigation should be handled by the MODO instead of the local DO.

The authority to open investigative cases, assess fines and close investigations rests
with the District Director (DD) or MODO. Additionally the MODO takes responsibility for
coordinating between other DOs information relating to the national employer. The
MODO is kept apprised of all activity relating to the employer. If necessary the MODO
coordinates investigative activities of the employer. The MODO’s responsibility also
includes serving as the contact point for negotiating agreements with the employer.

The Regional Office (RO) and DO are responsible for planning and executing a
compliance program for their respective areas that will result in the best possible use of
resources to achieve the overall goal of a balanced enforcement program. The RO and
National Office (NO) serve in an oversight and support capacity. Although based on
certain factors such as size of the employer, amount of the fine, and/or severity of the
violations, the RO and NO may become more involved in the case review and
determination of assessments.

An investigation may consist of an examination of payroll and time records. It might
include interviews with certain employees in private. Typically, the investigator
conducts a final conference after completing the fact-finding portion of the investigation.
However, if current child labor violations are discovered during the investigation, the
employer should be advised promptly without waiting for the final conference. By doing
5
 Wal-Mart’s headquarters is located in Bentonville, AR. Therefore, the WHD MODO for Wal-Mart is the
DD of Little Rock, AR, that reports to the Southwest Region located in Dallas, TX.
46                                           U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements

so, corrective steps can be taken immediately, such as transferring the minor to
permissible work. Included at the conference are the employer and/or a representative
of the firm who has authority to reach decisions and commit the employer to corrective
actions if violations have occurred. The employer will be told whether violations have
occurred and, if so, what they are and how to correct them. If violations were disclosed,
the employer or representative may present additional facts for consideration.

If child labor violations are evident, the investigator provides the employer with a copy of
WH-103, “Notice to Employer – Employment of Minors Contrary to the Fair Labor
Standards Act” at the final conference. The investigator then advises the employer that
determination of the appropriateness and amounts of CMPs is handled at the
supervisory level. If it is determined that CMPs are appropriate, the DO sends the
employer an assessment letter stating the amount of the CMPs and the violations that
resulted in the penalty assessment.

Procedures established under the FLSA, which may differ under other statutes
administered and enforced by WHD, allow employers 15 days to file an exception letter
after receiving a notice of assessment of CMPs. If the employer fails to file a timely
exception letter, then the amount of the assessment shall be deemed final. If the
employer files a timely exception letter, then the assessment is not collectible until the
case is dismissed or an Administrative Law Judge affirms the determination.

Wal-Mart Investigation and CMP Assessment

The Wal-Mart agreement stemmed from a total of 27 Wal-Mart stores investigated for
child labor HO violations; 23 located in the Hartford, CT district, 3 in the Little Rock, AR
district, and 1 in the Manchester, NH district. Of the 27 stores investigated, HO
violations were found in all except 2 of the Connecticut stores.

A hazardous occupation complaint against a Wal-Mart store in the Little Rock, AR
district initiated the first investigation in August 2000. A second store in the same
district received a back wage complaint in October 2000 initiating another investigation.
In July 2001 the Hartford, CT district initiated an investigation after receiving a complaint
from a Wal-Mart employee regarding back wages. After the MODO was informed of the
Connecticut investigation, he directed the Hartford DD to handle the investigation locally
and to include child labor hazardous violations in the investigation. The Hartford DD
decided to investigate all 23 Wal-Mart stores within the state at that time and continued
to inform the MODO of the status of their investigations. In October 2001, the MODO
instructed Hartford to hold final conferences with the stores they had investigated and to
inform the managers that the files would be forwarded to the MODO for consideration of
CMPs and discussions of corporate-wide compliance.

In November 2001, the MODO informed all WHD managers nationwide of the
Connecticut and Arkansas investigations. He requested information on past and current
cases or litigations against Wal-Mart and his desire for corporate-wide compliance. A
third investigation in the Little Rock, AR district began in September 2001 after the
district received a complaint from an employee’s parent regarding child labor hazardous

U.S. Department of Labor—Office of Inspector General                                       47
Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements

occupation violations. The final investigation started in March 2002, after OSHA
informed the Manchester, NH DO that a minor had been injured in the Salem, NH store
while operating a chainsaw.

As a result of these investigations, WHD assessed Wal-Mart a total $150,600 civil
money penalties for violations of child labor laws, most notably hazardous occupation
provisions of the FLSA. In response to the alleged violations, Wal-Mart filed a timely
exception pursuant to FLSA requirements. Wal-Mart and WHD elected to settle these
alleged violations, resulting in a mutual agreement to enter into a national agreement to
ensure future compliance and pay 90 percent of the total assessment amount.




48                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements


                                                                             APPENDIX B
OBJECTIVES, SCOPE, METHODOLOGY, AND CRITERIA


Objectives

Our audit was designed to answer the following questions:

   1. Did WHD’s process for negotiating, developing, and approving the Wal-Mart
      agreement and its content comply with applicable Federal laws and regulations?

   2. Does WHD have adequate procedures for negotiating, developing, and
      approving settlement agreements?

   3. How was the Wal-Mart agreement developed, and did it comply with established
      policies and procedures?

   4. How does the content of Wal-Mart agreement compare with other agreements
      entered into between WHD and other employers?


Scope and Methodology

We performed fieldwork from February 21, 2005, through September 21, 2005, at the
WHD National Office, WHD Dallas Regional Office, WHD Little Rock Arkansas District
Office, and WHD Hartford Connecticut District Office. To answer our objectives, we
reviewed the Fair Labor Standards Act (FLSA) of 1938, as amended, and the
associated Code of Federal Regulations (CFR), specifically Section 29 CFR Parts 570,
579, and 580. We obtained and reviewed ESA WHD’s three-volume set of instructions
referred to as the Field Office Handbook (FOH) for written procedural guidelines. We
also obtained and reviewed WHD’s Media Policy. We accessed ESA, WHD websites to
gain an understanding of the WHD’s organization, enforcement scope, and mission and
vision statements. We examined WHD-supplied correspondence, predominately copies
of e-mails dated between August 9, 2000, and February 10, 2005, which pertained to
the Wal-Mart agreement. We reviewed listings provided by WHD of current and former
DOL employees who were either involved in the Wal-Mart agreement or might have had
a limited involvement with the agreement. From these listings and review of
documents, selected individuals were interviewed regarding the Wal-Mart agreement.

We reviewed the information described above to gain an understanding of the
applicable laws and regulations and the WHD policies and procedures that apply to the
negotiation, development and approval of agreements. This information was also used
to evaluate the specific provisions of the Wal-Mart agreement.

Our review and analysis of Wal-Mart’s agreement was initially compared to 13 other
similar agreements judgmentally selected. For the 13 agreements, we conducted
U.S. Department of Labor—Office of Inspector General                                    49
Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements

interviews with key WHD National, Regional and District Office personnel that were
involved in investigations of the child labor violations; and in the negotiation,
development and approval of the agreements. We also analyzed copies of the 13
agreements, comparing the terms between each agreement. We reviewed WHD
investigative files and written correspondence regarding the Wal-Mart investigation and
settlement agreement. These Wal-Mart materials were obtained from ESA and from
Wal-Mart attorneys and covered the period August 9, 2000, through May 4, 2005.

The 13 agreements were judgmentally selected from the WHD database of child labor
investigations based on the following three criteria: 1) the employer had civil monetary
assessments over $25,000 for child labor violations; 2) the employer operated in
numerous physical locations and would be considered a chain of stores; and 3) the
employer and DOL signed either a compliance, litigation settlement or administrative
settlement agreement as a result of child labor investigations.

We performed the following measures in order to arrive at our 13 judgmentally selected
agreements for comparison with the Wal-Mart agreement.

       A search of the WHD database for child labor violation cases with settlement
       dates from March 1, 1998, through February 28, 2005, and assessed civil
       monetary penalties equal to or greater than $25,000, identified 217 cases.
       We then sorted those results and identified cases that were documented through
       the notation feature as ones resulting in settlement agreements. Twelve
       companies, not necessarily chain store operations, were identified.
       In order to provide for the possibility that all child labor cases with settlement
       agreements were not properly noted in the database, we analyzed press
       releases provided by the Department for the period March 1, 1998, through
       February 28, 2005. Additional companies of interest were identified through this
       process.
       We compared the companies identified through the press release search with
       those identified from the WHD database and found child labor cases related to
       the companies that had not been properly noted in the notation section of the
       database as having a settlement agreement.
       We, therefore, asked the Department to provide copies of all settlement
       agreements they had on file. We were provided 424 agreements from 1994
       through March 2005, including agreements not related to child labor violations
       settlements. We analyzed all 424 to determine which agreements were based
       on child labor cases with assessments equal to or greater than $25,000 and the
       company operated in numerous physical locations.
       The above process identified 13 agreements to be compared with Wal-Mart.

Our analysis of the Wal-Mart agreement and 13 other similar agreements revealed
significant differences in four areas relating to restrictions on WHD’s ability to issue
press releases, initiate investigations, issue citations and assess civil money penalties,
and consult with or obtain the approval of SOL. We also determined that provisions
addressing audits/monitoring conducted by the employer and proactive measures taken
by the employer were prevalent in the agreements. Given that these types of provisions

50                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements

and processes are not exclusive to just child labor investigations, we expanded our
testing of agreements to more fully understand the extent of these anomalies and
provisions in a broader population of WHD agreements.

In response to a request for data, WHD supplied OIG with six lead schedules
categorized into three different types of agreements. WHD defined the types of
agreements as follows:

   •   Compliance agreements or partnerships entered into between WHD and a
       company to promote corporate-wide compliance with labor laws. Some
       agreements were entered into as a result of violations found against the
       employers in multiple employer establishments;

   •   Litigation settlement agreements entered into to resolve FLSA minimum wage,
       overtime, and child labor violations after the investigation file had been referred
       to the Office of the Solicitor for litigation; and

   •   Administrative settlement agreements entered into to resolve FLSA minimum
       wage, overtime, and child labor violations prior to the initiation or referral of the
       investigation for litigation. It is possible that some of these cases were referred
       to the Regional Solicitor, but settled by Wage and Hour.

WHD provided OIG with copies of 424 agreements from 1994 through March 2005. In
order to determine the extent of the provisions found in the Wal-Mart agreement, we
analyzed all 424 for provisions pertaining to press releases, restrictions on DOL’s ability
to initiate investigations, restrictions on DOL’s authority to assess penalties, employer
audits/monitoring and proactive measure requirements.

Management Controls

To meet our objectives, we reviewed management controls over relevant activities. Our
management controls work included obtaining and reviewing policies and procedures
manuals, interviewing key personnel, and reviewing selected agreements to determine
the controls in place. Our testing of management controls focused only on the controls
related to our audit objective of reviewing the WHD’s process for entering into
agreements and was not intended to form an opinion on the adequacy of overall
management controls, and we do not render such an opinion.




U.S. Department of Labor—Office of Inspector General                                       51
Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements

Compliance with Laws and Regulations

We reviewed and analyzed pertinent sections of the FLSA, WHD’s FOH, and WHD’s
Media Policy to determine if the provisions of the Wal-Mart agreement are in
compliance with these policies and procedures. However, our testing of WHD’s
compliance with the FOH requirements of entering into and processing agreements was
limited to interviews conducted with WHD personnel involved in developing and
executing 14 child labor agreements tested. This testing was not intended to form an
opinion on compliance with laws and regulations as a whole, and we do not render such
an opinion.

Auditing Standards

We conducted our audit in accordance with Government Auditing Standards for
performance audits issued by the Comptroller General of the United States. Those
standards require that in planning and performing a performance audit, we make an
objective and systematic examination of evidence for the purpose of providing an
independent assessment of the performance of WHD.

An audit made in accordance with these standards provides reasonable assurance that
its objectives have been achieved; but it does not guarantee the discovery of illegal
acts, abuse or all internal control weaknesses. Providing an opinion on compliance with
all laws, regulations, and other compliance requirements or internal controls was not an
objective of our audit and accordingly, we do not express such an opinion. We believe
our audit provides a reasonable basis for our assessment and conclusions.

The conclusions provided in this report are the result of our performance audit of WHD’s
procedures during the period of August 9, 2000, through January 11, 2005. Changes in
the WHD processing of agreements, including changes in controls or laws, regulations,
and other compliance requirements, could result in performance that would be different
from the performance during that period. Therefore, this report should not be used to
evaluate performance results of future periods.

Criteria

We used the following criteria to perform this audit:

     Fair Labor Standards Act of 1938, as amended
     29 CFR parts 570, 579, and 580
     ESA WHD Field Operations Handbook
     Wage and Hour’s Media Policy




52                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements


                                                                             APPENDIX C

ACRONYMS AND ABBREVIATIONS


ADD       Assistant District Director
BRDO      Branch District
BW        Back Wage
CFR       Code of Federal Regulations
CJRC      Combined Joint Review Conference
CL        Child Labor
CMP       Civil Money Penalty
CO        Compliance Officer/Investigator
DD        District Director
DO        District Office
DOL       Department of Labor
ESA       Employment Standards Administration
FLSA      Fair Labor Standards Act
FMLA      Family Medical Leave Act
FOH       Field Office Handbook
FOIA      Freedom of Information Act
HO        Hazardous Occupation
MODO      Main Office/District Office
NO        National Office
OIG       Office of Inspector General
OSHA      Occupational Safety and Health Administration
RA        Regional Administrator
RO        Regional Office
RSOL      Regional Office of the Solicitor
SOL       Office of the Solicitor
STARS     Store Total Activity Review
WHD       Wage and Hour Division




U.S. Department of Labor—Office of Inspector General                                    53
Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements




                       PAGE HAS BEEN INTENTIONALLY LEFT BLANK




U.S. Department of Labor—Office of Inspector General                                    54
Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements

                                         APPENDIX D
AGENCY RESPONSE




U.S. Department of Labor—Office of Inspector General                                    55
Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements




56                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements




U.S. Department of Labor—Office of Inspector General                                    57
Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements




58                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements




U.S. Department of Labor—Office of Inspector General                                    59
Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements




60                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements




U.S. Department of Labor—Office of Inspector General                                    61
Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements




62                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements




U.S. Department of Labor—Office of Inspector General                                    63
Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements




64                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements




U.S. Department of Labor—Office of Inspector General                                    65
Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements




66                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements




U.S. Department of Labor—Office of Inspector General                                    67
Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements




68                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements




U.S. Department of Labor—Office of Inspector General                                    69
Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements




70                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements




U.S. Department of Labor—Office of Inspector General                                    71
Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements




                       PAGE HAS BEEN INTENTIONALLY LEFT BLANK




72                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements




U.S. Department of Labor—Office of Inspector General                                    73
Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements




74                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements




U.S. Department of Labor—Office of Inspector General                                    75
Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements




76                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements




U.S. Department of Labor—Office of Inspector General                                    77
Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements




78                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements




U.S. Department of Labor—Office of Inspector General                                    79
Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements




80                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements




U.S. Department of Labor—Office of Inspector General                                    81
Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements




82                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements




U.S. Department of Labor—Office of Inspector General                                    83
Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements




84                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements




                           Attachment 2




U.S. Department of Labor—Office of Inspector General                                    85
Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements




                       PAGE HAS BEEN INTENTIONALLY LEFT BLANK




86                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements




U.S. Department of Labor—Office of Inspector General                                    87
Report Number: 04-06-001-04-420
Agreement With Wal-Mart Indicates Need for Stronger Guidance and Procedures Regarding
Settlement Agreements




88                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 04-06-001-04-420
